<html>
<title> - [H.A.S.C. No. 113-4]PERSPECTIVES ON THE FUTURE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




                          [H.A.S.C. No. 113-4]
=====================================================================
 
                       PERSPECTIVES ON THE FUTURE

                     NATIONAL SECURITY ENVIRONMENT:

                      TECHNOLOGICAL, GEOPOLITICAL,

                     AND ECONOMIC TRENDS AFFECTING

                     THE DEFENSE STRATEGIC GUIDANCE

                               __________

                                HEARING

                               BEFORE THE

    SUBCOMMITTEE ON INTELLIGENCE, EMERGING THREATS AND CAPABILITIES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 13, 2013

                                     
[GRAPHIC] [TIFF OMITTED] 

                                     



                  U.S. GOVERNMENT PRINTING OFFICE
79-492                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




    SUBCOMMITTEE ON INTELLIGENCE, EMERGING THREATS AND CAPABILITIES

                    MAC THORNBERRY, Texas, Chairman

JEFF MILLER, Florida                 JAMES R. LANGEVIN, Rhode Island
JOHN KLINE, Minnesota                SUSAN A. DAVIS, California
BILL SHUSTER, Pennsylvania           HENRY C. ``HANK'' JOHNSON, Jr., 
RICHARD B. NUGENT, Florida               Georgia
TRENT FRANKS, Arizona                ANDRE CARSON, Indiana
DUNCAN HUNTER, California            DANIEL B. MAFFEI, New York
CHRISTOPHER P. GIBSON, New York      DEREK KILMER, Washington
VICKY HARTZLER, Missouri             JOAQUIN CASTRO, Texas
JOSEPH J. HECK, Nevada               SCOTT H. PETERS, California
                 Kevin Gates, Professional Staff Member
                 Tim McClees, Professional Staff Member
                     Julie Herbert, Staff Assistant



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS

                                  2013

                                                                   Page

Hearing:

Wednesday, February 13, 2013, Perspectives on the Future National 
  Security Environment: Technological, Geopolitical, and Economic 
  Trends Affecting the Defense Strategic Guidance................     1

Appendix:

Wednesday, February 13, 2013.....................................    37
                              ----------                              

                      WEDNESDAY, FEBRUARY 13, 2013
       PERSPECTIVES ON THE FUTURE NATIONAL SECURITY ENVIRONMENT: 
TECHNOLOGICAL, GEOPOLITICAL, AND ECONOMIC TRENDS AFFECTING THE DEFENSE 
                           STRATEGIC GUIDANCE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Intelligence, Emerging Threats 
  and Capabilities...............................................     9
Thornberry, Hon. Mac, a Representative from Texas, Chairman, 
  Subcommittee on Intelligence, Emerging Threats and Capabilities     1

                               WITNESSES

Berteau, David J., Senior Vice President and Director, 
  International Security Program, Center for Strategic and 
  International Studies..........................................     7
Hoffman, Francis G., Senior Research Fellow, Institute for 
  National Strategic Studies, National Defense University........     2
Lewellyn, Dr. Mark T., Director, National Security Analysis 
  Department, Johns Hopkins University Applied Physics Laboratory     5

                                APPENDIX

Prepared Statements:

    Berteau, David J.............................................    73
    Hoffman, Francis G...........................................    41
    Lewellyn, Dr. Mark T.........................................    58

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Nugent...................................................    91

Questions Submitted by Members Post Hearing:

    Mr. Franks...................................................    95
       PERSPECTIVES ON THE FUTURE NATIONAL SECURITY ENVIRONMENT: 
TECHNOLOGICAL, GEOPOLITICAL, AND ECONOMIC TRENDS AFFECTING THE DEFENSE 
                           STRATEGIC GUIDANCE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
        Subcommittee on Intelligence, Emerging Threats and 
                                              Capabilities,
                      Washington, DC, Wednesday, February 13, 2013.
    The subcommittee met, pursuant to call, at 2:05 p.m., in 
room 2118, Rayburn House Office Building, Hon. Mac Thornberry 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM 
TEXAS, CHAIRMAN, SUBCOMMITTEE ON INTELLIGENCE, EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Thornberry. The hearing will come to order. I think Mr. 
Langevin is on his way, but we have been asked to go ahead and 
get started. So let me just take a moment to welcome our 
members, witnesses, and guests to the first hearing of the 
113th Congress for the newly renamed Subcommittee on 
Intelligence, Emerging Threats and Capabilities. I think this 
added portion of our responsibilities dealing with military 
intelligence oversight is a perfect fit with this 
subcommittee's charge to look ahead at national security 
challenges facing our Nation in the future.
    And I am particularly pleased, and I can say this since he 
is not here, that I have the opportunity to continue to work 
with Mr. Langevin. Both of us being on the Intelligence 
Committee as well as this committee I think is a real asset to 
fulfilling those new responsibilities.
    Today we start our hearings with a broad look at global 
trends that may affect our national security. Recently the 
National Intelligence Council released publicly its latest 
installment of their Global Trends publication, which received 
a fair amount of attention in the press, and it seems to me 
that our witnesses today have valuable but also varied 
perspectives to help stimulate our thinking about the 
challenges that our country faces in the future. And again, 
that is exactly what this subcommittee has been asked to look 
at.
    Unless the gentleman from Georgia would like to make an 
opening statement, I can reserve until Mr. Langevin comes and 
let him do it when he arrives. It is up to you all.
    Mr. Johnson. I would like the opportunity, but I think it 
is best to wait for Mr. Langevin.
    Mr. Thornberry. Okay. I will let him make whatever 
statement he wants to and then his questions.
    So anyway, again, thank you all very much for being here. 
Let me now turn to our witnesses. They include Mr. Frank 
Hoffman, senior research fellow at National Defense University; 
Dr. Mark Lewellyn, director, National Security Analysis 
Division at Johns Hopkins University Applied Physics 
Laboratory; and Mr. David Berteau, senior vice president, 
director of the International Security Program for CSIS, Center 
for Strategic and International Studies.
    Again, thank you all for being here. Without objection, 
your full statement, written statements will be made part of 
the record, and at this time we would be delighted for you to 
summarize or offer such other comments as you would like.
    Mr. Hoffman.

   STATEMENT OF FRANCIS G. HOFFMAN, SENIOR RESEARCH FELLOW, 
  INSTITUTE FOR NATIONAL STRATEGIC STUDIES, NATIONAL DEFENSE 
                           UNIVERSITY

    Mr. Hoffman. Thank you, Mr. Chairman and other members. It 
is great to be here today, an honor to appear for you, this 
subcommittee, once again. It has been a long time. I am also 
very honored to be here with two very prominent experts who are 
longstanding old friends of mine.
    I would like to offer a much broader statement than my 
written statement, which was reflective of my previous work and 
keeping with where I think you want to go today with this 
particular committee. So I would like to talk about broader 
trends beyond the current defense guidance.
    There is a pernicious concept floating around Washington, 
D.C., right now that the tides of war are receding and that the 
United States can retrench without risk. There is what I call a 
new peace theory floating around town, reflected in prominent 
journals and think tanks here in town. Recently one commentator 
from a think tank here in Washington said that, ``There is no 
single causal factor at work, but all point in one direction. 
We are nearing a point in history when it is possible to say 
that war as we know it has disappeared.''
    That is a bold and very dangerous statement and one I do 
not agree with. Great progress has been made in the last 
decade, but the notion of a dramatic change in human nature or 
a significant shift outweigh 2,000 years of recorded history is 
tenuous at best. I have spent 35 years in the Department of 
Defense, most of my career looking forward, casting headlights 
out with some distance to gain some foresight about the future, 
and I see things through a much darker lens than that. I think 
the new peace theory crowd is confusing correlation of data 
with causation.
    Now, there are five reasons to be satisfied today about our 
current security situation if one is just looking backwards 
over the last 10 years. These five include our current status 
as a world superpower, applying our stability and leadership to 
the world. There is a consensus on a Western model based upon 
rule of law, economic prosperity on a capitalistic model and a 
representative government. That also includes globalization's 
shared and equal economic progress.
    Since 1991 we have enjoyed a lack of major power 
competition. We have had extensive peacekeeping support from 
the international community, to include the UN [United 
Nations], that has been very helpful. And, fifth, there is a 
growth and a continued contribution from the conflict 
resolution community, the IOs [international organizations], 
the PVOs [private volunteer organizations] and the NGOs 
[nongovernmental organizations], that has been very useful. And 
these five conditions clearly cause positive assessments 
looking back over the last 10 years.
    But the Emerging Threats Subcommittee, and this committee 
has a reputation for not driving by a rearview mirror, you are 
required to look forward, as some of us are in the Pentagon, 
and there is a number of reasons looking at things from a 
future tense that should make people have some pause. And the 
first one is, most significant I think for you and for this 
Congress, is the perceived hegemonic retrenchment of the United 
States due to some perceived decline in our capabilities or 
interest in sustaining our position in the world.
    The second reason is the rise of emerging powers. History 
suggests some caution when new emergent, non-status-quo powers 
arise and create disequilibrium by seeking to restore either 
their previous status or some perceived slights. I won't have 
to mention which state I am referring to.
    The third reason is continued or reduced international 
support. I suspect that over the next decade we are going to 
see a degree of peace support fatigue or simply a lack of 
domestic support for many allies and other agencies that have 
been very useful in allying with us and keeping instability 
down.
    The fourth reason is, and I am someone who is spending a 
lot of time in Europe these days working on my education, but 
there is a lot of discussion about the decay or the dissolution 
of important alliances to us and important alliance partners. I 
am particularly concerned about NATO's [North Atlantic Treaty 
Organization] self-disarmament. It is a group of states that 
has been allied with us for a long period of time to great 
effect, but they are going to be older, poorer, and less 
inclined to work with us in the future, and that should be a 
pause for concern.
    My fifth source of concern is proxy wars. These can be very 
catalytic in terms of conflicts. They are not intended to, but 
they can produce a major war out of what is supposed to be a 
smaller conflict. And there is new forms of conflict which this 
committee is very, very aware of in the cyber world in which 
attribution of the attacker is very hard to identify, and that 
can create new forms of conflict and also then catalytically 
lead to a more conventional kind of conflict if we perceive the 
attack to have been directed and attributable.
    Number six, resource conflicts. I think energy, water, 
food, rare materials, most of the time there is a body of 
evidence that suggests these do not lead to conflicts, but they 
certainly can create the tinder box for conflicts. I see 
actions in the South China Sea by China and its efforts to 
secure energy resources and raw earth assets as something to be 
taken seriously in this regard.
    There is an issue of demographic decline or demographic 
change in many states around the world. We used to worry about 
youth bulges, having very high numbers of young people in 
states in Africa and Asia that were unemployed or in the Middle 
East that might lead to destabilizing things. I think we now 
instead of youth bulges also have to worry about graying bulges 
in some areas, particularly in Southern Europe, where there are 
large numbers of people who are going to be pensionless, 
underemployed or unemployed for long periods of time. That will 
produce more disillusionment and more angry people than I think 
we have seen in the past that will lead to political 
instability and also allies who are more insular in their 
orientation rather than in exporting security.
    Eighth is the most obvious, is divided religions and 
religious extremism. The continued sacred rage coming from 
Islam is going to make internal fights. I think the Arab Spring 
has a lot of hope in it, but it is also going to produce some 
illiberal democracies, and we will see some other forms of 
government emerge out of that. And I am particularly concerned, 
of course, about Egypt, among other areas. We are creating a 
lot of fertile ground for Al Qaeda and its affiliated movements 
to take root in some places, and we are not going to be happy 
with the results.
    Number nine, disintegration of socio-economic stability. 
Again, I am particularly concerned about southern Europe and 
northern Africa, there is a great deal of distress, dissent, 
and discord there from economic instability. We need to 
consider the conditions in which the new normal in southern 
Europe where unemployment, the new norm might be peaking out 
and stabilizing at 25 percent, is not going to be allies and 
states that are going to be exporting security for us or 
working with us in other places.
    And finally, my last, my 10th point is the democratization 
of means of conflict. Again, the diffusion of technology in 
lethal and nonlethal forms is something that is creating not--I 
don't go as far as Thomas Friedman with super-empowered 
networks or super-powered individuals, but we should think of 
super-empowered networks with means of mass disruption that can 
hit us in many, many different ways.
    So for those reasons, those 10 conclusions make my lens 
look a little bit darker than some of the other people in the 
community here in Washington, D.C.
    Plato had it right. Only the dead have seen the end of war. 
We may not face another bloody century like the last, which was 
pretty bad, but the world remains a very dangerous place, and I 
know General Dempsey has stressed to you in the past. Trends 
suggest that the next decade is not going to be as placid as 
the last 10 or 20 were, and many of us don't think that the 
last decade was that great.
    There are folks whose real agenda is cutting defense, not 
contributing to our security, and you need to consider that in 
looking at their evidence. We have to be prepared for a much 
more broadening array of actors and challenges rather than one 
singular one that is very, very deep and of great challenge to 
us. We have to be ready for a broad spectrum of conflicts that 
range from purely irregular and terrorist at one end to perhaps 
rising powers with conventional capabilities at the other, and 
then all the messy in the middle that my statement talked 
about, the converging of low-end threats with high-end 
capabilities, producing hybrid threats.
    This committee's charge is at the cusp at what is emerging 
in the national security arena and what is going to no doubt I 
think generate the greatest threats and the risk to our 
prosperity and security in the next decade. It is a sobering 
responsibility. I am glad to be able to help you with that to 
the greatest degree I can. Thank you for the opportunity to 
discuss these challenges.
    [The prepared statement of Mr. Hoffman can be found in the 
Appendix on page 41.]
    Mr. Thornberry. Thank you.
    Dr. Lewellyn.

STATEMENT OF DR. MARK T. LEWELLYN, DIRECTOR, NATIONAL SECURITY 
 ANALYSIS DEPARTMENT, JOHNS HOPKINS UNIVERSITY APPLIED PHYSICS 
                           LABORATORY

    Dr. Lewellyn. Congressman, I look forward to provide my 
views that will shape the national security environment looking 
out to 2030 and how that might affect the path set by the 2012 
defense strategic guidance. The opinions stated are my own.
    Mr. Thornberry. Excuse me, Dr. Lewellyn, would you pull the 
mike a little closer or something, we are having----
    Dr. Lewellyn. Good, sorry.
    Mr. Thornberry. Oh, that is much better. Thank you.
    Dr. Lewellyn. Thank you.
    So I was saying I look forward to giving you my opinion on 
how the path set by the 2012 Defense Strategic Guidance will 
affect things. The opinions I state are my own and do not 
necessarily reflect those of the Johns Hopkins University 
Applied Physics Laboratory or its sponsors.
    Will this strategy get the military capability we need in 
the near term, especially in the context of declining funding 
for defense? The strategy attempts to be comprehensive. 
However, there are some areas where we may be falling short, 
and we must think through an integrated response to address 
them.
    The strategy identifies a range of missions that U.S. 
forces need to address with the resources that are available 
and the threat environment in which the missions must be 
executed. Much of our technical effort focuses on improving the 
capabilities of the sensor, weapon, communications, cyber, and 
space systems that will be used to address the emerging 
threats. Our work indicates there are gaps in the capabilities 
we need to defeat emerging threats identified in the strategy, 
particularly the anti-access/area-denial threats posed by Iran 
and China.
    Kinetic weapons we are developing to counter threats 
launched against our forces, while capable, should be 
supplemented by nonkinetic systems to ensure we can deal 
effectively with large coordinated attacks. Nonkinetic means to 
defeat these threats include netted electronic warfare systems, 
integrated cyber-attack capability, lasers and other directed 
energy systems. In addition, we should explore creative uses of 
existing weapons to counter threat systems. We must also 
continue to explore ways to use electromagnetic weapons with 
their promise of large magazines of relative inexpensive 
bullets to counter threat kinetic weapons.
    Maintaining our access to space is a real issue, and we 
must pursue viable backups to counter attacks on our satellite 
communications networks close to denied areas and quickly 
reconstitute the capability they provide. This includes the 
need to identify methods to operate in environments where the 
global positioning system, GPS, is denied.
    We have an edge in the capability of our submarine force 
relative to potential threats, and we must work to maintain it. 
The ambiguity posed by the unseen presence of a capable 
submarine can be leveraged to our advantage. Exploring ways to 
operate unmanned systems autonomously will allow the proven 
capability of these systems to be used in new ways.
    Finally, we must ensure that our Special Operations Forces 
have the technology they need to perform their critical 
missions. While we work to improve the ability of our systems 
to defeat those of the threat in war, we must also consider how 
we can better use these systems to deter potential threats and 
win without fighting, much as we did during the Cold War. In 
China, the United States has a competitor with a coordinated 
strategy for achieving its national objectives without needing 
to resort to war. In other words, to win through shaping and 
deterrence, as evidenced by its development of anti-access/
area-denial capabilities.
    To deter China effectively, the U.S. must employ an 
effective countervailing strategy informed by an understanding 
of the implications of divergent U.S. and Chinese perspectives. 
We must include an understanding of these differing views as we 
operate our current forces and as we develop, test, and employ 
new capabilities to ensure that the messages we want to send to 
China are received as we intend. The message China sent by 
demonstrating its ability to shoot down a satellite several 
years ago was received clearly by us.
    So what does this mean for Congress? You should ensure that 
our intelligence collection efforts remain strong and that as a 
government we encourage openness and transparency, drawing on 
insights gained from social media and other information 
technologies. Information is critical, and there is already 
evidence that in the cyber world operations may be shifting 
beyond deterrence into more direct competition. We must ensure 
that our cyber forces are equipped with the appropriate 
technologies and rules of engagement to win.
    You should support the development of warfighting 
capabilities that contribute to deterrence, such as the 
aforementioned efforts to supplement our kinetic systems by 
developing complementary, nonkinetic means to defeat threats. 
These include netted electronic warfare systems, integrated 
cyber attack capability, lasers, and other directed energy 
systems as well as electromagnetic weapons. In addition, we 
need to maintain our edge in submarine warfare, cyber 
operations, and special operations capability, and because 
communications and intelligence are critical for deterrence, we 
must work to maintain our access to space and identify ways to 
improve resilience in our space systems.
    A vibrant research and development base will be critical to 
supporting these efforts, and I want to comment briefly on how 
reductions in funding for this base can be made reversible. It 
is important for each research and development organization to 
identify its core competencies and protect them when funding 
reductions occur. More important perhaps for us is to maintain 
a robust science, technology, engineering, and mathematics 
education program, or STEM program, to ensure a continual 
refresh of thinking about defense from the brightest minds of 
our next generation. I personally benefited from the National 
Defense Education Act when I was in high school back in the 
1960s.
    Thank you for the opportunity to provide my comments. I am 
prepared to address any questions you may have. Thank you.
    [The prepared statement of Dr. Lewellyn can be found in the 
Appendix on page 58.]
    Mr. Thornberry. Thank you.
    Mr. Berteau.

   STATEMENT OF DAVID J. BERTEAU, SENIOR VICE PRESIDENT AND 
DIRECTOR, INTERNATIONAL SECURITY PROGRAM, CENTER FOR STRATEGIC 
                   AND INTERNATIONAL STUDIES

    Mr. Berteau. Thank you, Mr. Chairman, Mister, as we say it 
in south Louisiana, Langevin, which is a more Cajun way of 
pronouncing it than they do in Rhode Island, I suspect, members 
of the committee. It is a high privilege to be here today, and 
I am very grateful to you.
    It is also nice to be in this room and to read Article I, 
Section 8 and the plaque that sits in front of us as witnesses. 
I teach three times a year a graduate class in Congress and 
national security policy, and virtually every session of every 
class comes back to that one sentence in the Constitution, so 
it is a privilege to be sitting here and reminding of that.
    It is also a great privilege to be in this room and look at 
the men whose pictures are on the walls around us here and 
realize the contributions that this committee has made to the 
success of national security over my entire lifetime.
    I have submitted a written statement, as you have indicated 
it is in the record in its entirety. I won't repeat some of the 
things that are in there, and I would like to emphasize just a 
couple of points so we can get to the questions, if you will.
    You spent the whole morning and a good chunk of the 
afternoon actually on a lot of the budget and sequestration and 
economic-related issues, and I will be happy to get back to 
those during the questions if you want, but there are a couple 
of key points that I would like to make.
    One is in the charts in my statement, and I will refer here 
to chart 2, the second chart, is the result of a recent study--
I am sorry, I have got my charts out of order here. It is 
actually chart 5. In addition to all the challenges that DOD 
[Department of Defense] faces with sequestration, with the 
problems of the continuing resolution, with the future impact 
of post-sequestration caps from the Budget Control Act, there 
is an internal cost growth problem in DOD, and that internal 
cost growth is illustrated here on this chart.
    We have just completed a project at CSIS [Center for 
Strategic and International Studies], and we put our public 
briefing out last week. We are going to put a report out later 
this month, and I will be glad to provide it to the 
subcommittee because I think you will want to take a look at 
it, but it basically tracks the internal cost growth of both 
military pay and benefits, including health care, and of the 
operation and maintenance account, and the degree to which that 
cost growth independent of the sequestration or the budget caps 
will by the beginning of the next decade essentially drive out 
all opportunity for investment costs, for R&D [research and 
development], and for procurement. And absent either a dramatic 
increase in military spending or a dramatic reduction in force 
structure and personnel, unless those costs are brought under 
control, they are going to basically squeeze out investment, 
and it will be hard to sustain and maintain our edge, if you 
will, under those circumstances. Be glad to go into that a 
little bit further.
    The second point that I would like to make is on figure 7, 
contract obligations for R&D. We do at CSIS annual reports on 
contract spending across the Federal Government, and we do a 
specific report on DOD. You know that this is, we are now in 
the middle of our fourth drawdown in the last 60 years, post-
Korea, post-Vietnam, post-Cold War, and today. I hate to call 
it post-BCA [Budget Control Act] because that doesn't quite 
have the same ring, if you will. But one of the very big 
differences between the buildup that we have had over the 
previous decade and previous buildups is in R&D spending, and 
this probably applies to science and technology across the 
board. In previous buildups R&D spending tends to go up faster 
than the overall increase in DOD spending, and that creates a 
technology reservoir, if you will, from which we can draw as we 
are drawing down and invest in periods of decline.
    That did not occur in the decade of the aughts, where R&D 
spending both as a percent of DOD's budget and as a percent of 
total contract dollars actually went down, and that is what 
this chart depicts. We were at 15 percent in the late 1990s, we 
are down to only 10 percent not of the budget, but of contract 
spending, of money spent under contract. Now, this is 
unclassified R&D, it does not include classified contracts, but 
the trend is the same for the classified contracts as well. I 
just can't reflect the data in an unclassified document.
    What that says is we have not invested in the future in the 
way we typically do during a buildup. That is going to make it 
harder during the drawdown. And I think for the S&T [science 
and technology] responsibilities of this subcommittee it is 
something that will require some particular attention as we go 
forward as well.
    Let me focus on my last of my comments, if you will, on 
what does all this mean, what does it mean for industry, what 
does it mean for innovation? Industry itself relies upon the 
Defense Department for demand signals. Typically those demand 
signals come from the budget and they come from the Future Year 
Defense Program. One of the great strengths of the Defense 
Department is its ability to do fiscally disciplined long-term 
programming and then to use that as the baseline for execution. 
Obviously we modify it each year, this committee pays a lot of 
attention to that Future Year Defense Program to look at 
whether the investments being made today will be sustained over 
time.
    We haven't had a good fiscally disciplined FYDP [Future 
Years Defense Program] in a long time. We have been in two 
wars, we have had supplementals and overseas contingency 
operations accounts to pay for anything you couldn't fund in 
the base budget, and frankly we have lost some of the internal 
skills in DOD to do this and some of the processes. It is 
critical that those get restored.
    Industry does need those just as much as you do because 
that is their demand signals. That tells them where to invest, 
what kind of skills to hire, what kind of workforce to retain, 
what kind of technologies to be developing. Right now they are 
pretty much left guessing. One of the most important things 
that could be done, obviously there are benefits from dealing 
with sequestration and Budget Control Act from an impact on 
readiness, but there is also a big benefit from the long-term 
investment in industry in helping them where to go.
    Similarly with innovation, what we have seen is a historic 
shift in the development of technology for national security. 
We have relied for 60 or 70 years on new technology developed 
for national security, under DOD contract by defense 
contractors; DOD gets first dibs at it. That is changing, and 
it is changing not only because we are not investing as much as 
previous data show, but it is also changing because where 
innovation is occurring now is often in the global commercial 
market, not in the domestic national security market, and we 
need to do a better job of both identifying those kinds of 
technology developments, and this is everything from 
communications and data management and sensors and data fusion 
to nanomaterials and 3D [three dimensional] printing and a 
whole host of other technologies that DOD is paying attention 
to but is not the driver.
    And we also are about to wrap up and will also have ready 
later this winter and will be glad to provide to the committee 
some recommendations that CSIS is making on how DOD could do a 
better job both identifying and ultimately taking advantage of 
global commercial technology developments around the world.
    With that, Mr. Chairman, I will conclude my remarks and I 
will be happy to take your questions.
    [The prepared statement of Mr. Berteau can be found in the 
Appendix on page 73.]
    Mr. Thornberry. Thank you. And I appreciate all the 
comments that all three of you made. Lots of food for thought 
and interesting points to pursue. But at this point I will 
yield for any statement and any questions the distinguished 
ranking member would like to make.

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
  RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON INTELLIGENCE, 
               EMERGING THREATS AND CAPABILITIES

    Mr. Langevin. Thank you, Mr. Chairman, and I take this 
opportunity to welcome our witnesses. I apologize that I had 
run late. I was tied up in another meeting, as often happens 
around here, but I am looking forward to your testimony and to 
getting to the question and answers.
    But, Mr. Chairman, since this is our first subcommittee of 
the 113th Congress, I will start by saying how much I look 
forward to working with you. I enjoyed looking with you in the 
last Congress and look forward to working with you in this as 
well. And I want to also start by again welcoming our newest 
Members to Congress and particularly to the subcommittee. I 
look forward to working with these gentlemen and ladies as 
well, and look forward also to our strong--their strong 
participation and valued input as we do our part in shaping our 
Nation's defense strategy.
    As this subcommittee is charged with overseeing the 
Department's authorities and investments that are primarily 
focused on addressing asymmetric threats as well as developing 
promising capabilities to address these varied and complex 
challenges, I am sure that our first hearing will spur some 
thoughts about, among our members, regarding the future 
national security environment and how we should best prioritize 
our defense resources against the backdrop of fiscal pressures 
and other concerns.
    So over the past decade we have rightly vested in short-
term deliverable-based acquisitions and related research, and 
we will continue to provide near-term capabilities to deter and 
defeat our adversaries. However, as we will hear today, we must 
appropriately prepare for future challenges. The Department of 
Defense, and our interagency and international partners, 
confront a broad range of challenges including cyber warfare; 
terrorism; weapons of mass destruction; homeland defense; 
space; anti-access/area-denial; instability; and humanitarian 
operations.
    So I look forward to hearing more from our witnesses on how 
best to shift our current short-term emphasis, particularly in 
innovation, to one that might provide long-term benefits to our 
national security.
    As many of our past members know, I am always particularly 
interested in hearing your thoughts on advancing our cyber 
defense strategy and capabilities, which is going to become 
increasingly important as we go forward and will be more widely 
used and relied upon, as well as the advancements of 
potentially game-changing technologies such as directed energy, 
autonomous unmanned systems, and electromagnetic rail guns to 
name a few, some of which you have already mentioned in your 
testimony here today.
    So I also see that some of you are affiliated with 
universities, and I believe the members of this subcommittee 
would benefit from any comments you might have regarding the 
health of our innovative pipeline, particularly addressing 
science and technology future workforce needs of the 
Department.
    So with that, I again welcome our witnesses. And Mr. 
Chairman, look forward to working with you. Thank you.
    Mr. Thornberry. Thank the gentleman. And I said the same 
thing, but I got to say it before you got here. So would you 
like to go ahead and question the witnesses?
    Mr. Langevin. I will yield to you first, Chairman, and then 
I will go.
    Mr. Thornberry. Well, I was just going to yield to other 
members unless you want to.
    Mr. Langevin. That is okay, then I will yield.
    Mr. Thornberry. Mr. Nugent.
    Mr. Nugent. Mr. Chairman, thank you so very much.
    And this is my first subcommittee meeting on HASC [House 
Armed Services Committee], so I appreciate our panel being 
here, and always interesting to hear your take in regards to 
where we are intelligence-wise and the other.
    But to Mr. Hoffman, and this relates to Pakistan. You know, 
India is on track to have an economy, I believe, 16 times that 
of Pakistan. And so the question--I have multiple questions, 
but one is, how do we expect Pakistan to react to that in the 
climate that they are in, and do you think they are going to 
promote a broader terrorist activity to try to counter India's 
growing power as it relates to financially?
    Mr. Hoffman. Sir, I am not an Asian expert or a South Asian 
expert, but do have that kind of asset in my office. I can get 
you a more specific answer.
    [The information referred to can be found in the Appendix 
on page 91.]
    Mr. Hoffman. But in general I believe that Pakistan will 
continue doing what they have been doing for the last several 
years, is a much more severe acceleration of their nuclear 
deterrent. The scale in terms of size, population, and economic 
clout of India is very daunting to Pakistan, and their idea of 
their national narrative is, you know, that they are 
overwhelmed, and it gives them a justification to invest in 
nuclear materials. They will still also support on their 
perimeters the kind of alliances and proxy forces that they 
have had in the past, which are largely, you know, terroristic 
in nature.
    Mr. Nugent. I understand that is not your subject area, but 
what is the take in regards to, will Pakistan work with us, do 
you think, as relates to trying to move to a more free market 
economy which may, in fact, then counter India's strength?
    Mr. Hoffman. I think they are trying to. I think, you know, 
the ports, the activity in Karachi and the southern half, it 
definitely would benefit from economic development, exports and 
imports, and that would be an approach to take with them. But I 
think that the overwhelming national narrative and the scale of 
their relationship with India is still going to lean them 
towards retaining something that is the ultimate high ground 
for them, nuclear or some other means.
    Mr. Nugent. Obviously, I mean, with the Taliban and as it 
relates to Afghanistan and where they, you know, where they are 
positioned with Pakistan, it is concerning, to say the least, 
in regards to where they move forward, particularly as they 
move forward with the Taliban.
    But to Mr. Berteau, you know, we heard a lot today earlier 
in the HASC meeting reference to what is going to happen with 
sequestration and obviously with the CR [continuing 
resolution]. But how do we prioritize as it relates to 
prioritizing and maintaining partnerships around the world? You 
know, we train with other organizations, and it sounds like we 
are going to be cutting back our training and our ability to 
reach out and help.
    Mr. Berteau. Mr. Nugent, that question really hits at the 
core of I think the impact of both sequestration and the 
disconnects between budget requirements and the continuing 
resolution, but it extends well beyond fiscal year 2013 as 
well.
    I would actually start with your Pakistan-India question 
because I think one of the lesser understood elements of that 
is the economic growth and the potential value and the need for 
the U.S. to be both aligning itself with and actually investing 
intellectually and sometimes from a capital point of view. One 
of the unsung benefits of the way in which we have been 
evolving the economic strategy in Afghanistan over the last 
couple years is to take advantage of Indian investment in 
Afghanistan to bring the Pakistanis into a better economic 
relationship, not cross-border, but in a regional sense, and 
things like the TAPI pipeline, the Tajikistan-Afghanistan-
Pakistan-India pipeline, goes a long way towards creating some 
of that economic integration that is very difficult to do. This 
is obviously outside the realm of the Defense Department in 
terms of its requirements, but it is clearly part of the 
broader geopolitical and geostrategic framework.
    When we took a look last year at the pivot to Asia and what 
the Pacific would respond, and CSIS did a report, I was co-
director of it, that was submitted to the Congress, we 
testified before another subcommittee of this committee last 
year, one of the real things we looked at was kind of the lower 
end of that spectrum, engagement with countries, using 
training, using opportunities in humanitarian assistance and 
disaster recovery, using the Pacific Command augmentation teams 
from Special Operations Forces, et cetera, to build that 
engagement at a low level, but across 30 countries in the 
region to create more of a dynamic, and training and exercise 
money is a critical piece of that. It is pretty small in the 
overall defense budget perspective, but it is critical not to 
let that slip away, and yet under sequestration clearly it 
will.
    The difficulty, and you heard this from Dr. Carter and 
General Dempsey and the rest earlier today, is that as it is 
being implemented, sequestration does not permit for the 
allocation of those priorities. I would submit that they need 
that flexibility. One of the ways in which the Congress, 
however, can give them that flexibility is with an actual 
appropriations bill for the rest of the fiscal year as opposed 
to a CR, but even if there is a CR, at least substantial 
reprogramming and transfer authority within it. Even so, the 
question of what priorities you would apply, which is really 
the basis of your issue, remains somewhat unanswered from that 
point of view.
    Mr. Nugent. Mr. Chairman, I yield back. Thank you. Thank 
you very much.
    Mr. Thornberry. Thank you.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    This is a somewhat philosophical discussion we are having 
today, and I will get a little philosophical. Heaven and hell, 
aspects of human nature, high side, low side, every human being 
has it. It is easy to dwell on that low side, which is 
fighting, cussing, trying to conquer, control, greed, those 
kinds of conditions. There are other conditions of living that 
are much higher: Altruism, compassion, mercy, spirit to see 
everyone be happy. Some would say that that is a utopian ideal 
that will never happen, and I agree that it will never happen, 
and it certainly will never happen if we don't work towards it.
    And so for the peaceniks and others who see nothing but 
peace and happiness, we need that group, and we also need the 
group that sees nothing but danger ahead, and both of those 
groups need to look at the situation, try to do so through the 
same lens, and maybe we can find somewhere in the middle where 
we can start making good, rational decisions about defense and 
security in our Nation, emerging threats. That means that the 
threats are there, and they are always going to be there, but 
they change.
    And so what kind of changes can we make in our defense 
strategy to keep us from having to go to war? And so I think 
maybe we could be reaching a point where we are moving away 
from the hard power solutions to the soft power solutions. As 
people get more educated and as we trade with each other more, 
we have less time for fighting. And that doesn't mean we don't 
need to be prepared for the fight.
    And so I actually think that we should always be willing to 
expand our thinking about how to address the threats that we 
see emerging, and soft power has to be, although it is not 
within the domain of this particular committee, perhaps we 
should pay more attention to it, perhaps there is a need for 
not income revenue, shifting away from hard power assets such 
as nuclear weaponry into things that will be more likely to 
happen, like cyber threats, and you know.
    So we have got to--I think what our tendency has been to do 
is with respect to defense is we plan ahead 20, 30 years, we 
build out, but we never do address the fact that the time has 
changed and as there are new threats, do we need to continue 
doing what we have been doing? Do we need as many personnel? Do 
we need that many boots on the ground in light of the threats 
that we are likely to face and the way that is most smart to 
address those threats?
    So I would just challenge my colleagues to look at things 
not as they have been but as how we want them to be. If we 
don't try to shape the world in a more peaceful way, then it 
will never get to that point. So with that I will say that I 
very much enjoy service on this committee, on this 
subcommittee, I enjoy my services on Armed Services. I think 
this is one of the most bipartisan committees in Congress, and 
I enjoy serving on it, look forward to future service. Thank 
you.
    Mr. Thornberry. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today. First question 
is this, Mr. Hoffman, you alluded to this when you talked about 
think tank folks, really smart people, Ph.D.s, Secretaries of 
Defense of the past, I would say, too, who have said that we 
are not going to be in a big air war again, we are not going to 
be in any more pitched naval battles, we are never going to 
have any peer-to-peer anything anymore, warfare has changed.
    I guess my question to you is, where is that school of 
thought coming from? And I don't want to be disrespectful of 
those previous Secretaries or those super smart Harvard Ph.D.s 
that have said this kind of stuff, but how could you be so, in 
my opinion, naive and shortsighted that you look back a few 
thousand years and think that human nature has really 
transformed in the last 50 to where you are not going to have 
it anymore? I am just curious, where do you see that coming 
from?
    Mr. Hoffman. Thank you, Mr. Hunter. A lot of people put a 
lot of hope in the better angels of our nature. They aspire to 
and seek and want to see us move forward to enjoy the 
prosperity that our hard investments in security have created 
for ourselves.
    There is a very strong statistical case in work by Joshua 
Goldstein, Steve Pinker, and others in the literature right now 
that suggests that both the number of conflicts and the number 
of lethality or casualties in conflict has statistically been 
going down for some period of time. There is actually a factual 
basis for that. One can quibble, and I have, I am doing 
research right now for the chairman on, you know, how good some 
of those statistics are, but there is a general trend line. If 
you take World War I and World War II out of this thing, war is 
not a normal phenomenon. It does not always occur. It creates 
these big disequilibriums, and if you can invest smartly and 
avoid one, you would be very wise to do so.
    The causality for why these lines have been going down, I 
believe we, this body, has created with the investments and the 
sacrifice that our Armed Forces have created for ourselves over 
the last 10 or 20 years. But what I think is some people want a 
policy aim, and they are backing the data in to support what 
they want. They want to reduce defense spending. They don't 
understand that that defense spending has actually created the 
security conditions and the reduced number of wars and the 
reduced lethality of these wars in our favor. And they don't 
seek to sustain that.
    Mr. Hunter. Let me ask you, though, if you look pre-Cold 
War you have got a few engagements in the last 100 years. If 
you look post-Cold War you have dozens of engagements, but the 
lethality has gone down, but the number of events has gone up. 
So we aren't having--there aren't fewer hot spots than there 
were in the 1960s or 1970s, there is more, but there is much 
less lethality in the wars in Iraq and Afghanistan than there 
were in World War II, Korea, World War I. Would you agree with 
that or no? Do you see the number of events going down?
    Mr. Hoffman. The data for the number of events has gone 
down, but they are generalized from global statistics, from 
numbers of conflict in Asia and Africa in which United States 
had no interest whatsoever. If conflicts go from, say, 100 a 
year down to 5, and all 5 of them deal with treaty partners or 
very close friends of the United States, then I still have a 
cause for concern.
    So the overgeneralization of statistics from a mass number 
of global things that we never heard about and didn't care 
about, and if the only conflicts we care about are off Taiwan, 
the South China Sea, Korea, the Middle East, Iran or Israel, 
then we have cause for concern. So my problem is people are 
overgeneralizing global statistics, and they are not getting 
down to the meat and specifics of threats to friends and 
interests of the United States. And they are wrong. We need to 
continue to invest in security, but smartly, and we need a 
comprehensive approach that both prevents and deters conflict.
    Mr. Hunter. Let me ask the other witnesses, too, a totally 
separate question. Do you see a point in which technology and 
its ubiquity, and as the cost of technology gets lower and 
lower, it is offsetting our personnel problem at any point? Is 
there a tipping point where you can say we don't need as many 
people, we don't need as many hospitals on base, we don't need 
as many day care centers because we have the ability to strike 
nonkinetically, we have the ability to deter with other means 
besides manpower? And if you see that, is there an actual 
tipping point there or do you think it is always going to take 
one and the other kind of hand in hand where you have the 
choice between going kinetic or nonkinetic or using high 
technology stuff versus stabbing people in the face when you 
have to go door to door?
    Mr. Berteau. Mr. Hunter, let me take a first crack at that. 
First of all, with respect to are we having more hot spots now 
than before, from the U.S. perspective clearly yes, but I think 
one of the biggest differences--and I think it permeates this 
whole discussion--during the Cold War there were parts of the 
world we could ignore. We and the Soviets essentially had 
agreed we will leave those guys to sort their own thing out, it 
is not part of our fight. Today there is no part of the world 
we can ignore. The nature of a failed state, the nature of a 
vacuum in governance, the nature of a vacuum in economics 
creates both an intelligence threat and an opportunity for bad 
guys that is something we can no longer ignore.
    Part of that is because of the spread of technology. But 
your point on can we trade technology for human beings, that is 
actually been what we have been doing really for the last 30 or 
40 years. It clearly has a point in the curve where that will 
slow down. I don't think we yet know for the advanced unmanned 
systems that we have in place today what the long-term tail 
requirements are to support and sustain those, and you may 
trade military personnel but not necessarily cost and 
investment, if you will, in terms of the long-term ability to 
sustain and support that operation.
    Ultimately I think it still needs to be a blend. I mean, 
time and again we see that the human being in the loop is 
critical to mission success at whatever level, squad, all the 
way up to theater. And I don't think we will ever bypass that 
part of the product. I don't know if Mark has anything to add 
to that.
    Dr. Lewellyn. I would say it is a matter of looking at over 
time what mix we need. When you fire a kinetic weapon, it blows 
something up, you can see the effect. With some of the 
nonkinetic weapons you don't really know what effect you have 
had until either the weapon from the other side doesn't show up 
or it misbehaves. So we need to have a spectrum of responses 
now and look for a cost-effective mix.
    In terms of costs, one thing I have been personally 
struggling with over the last several years is figuring out how 
much a pound, for want of a better term, a pound of cyber 
costs. You know how many people it takes to man a weapon system 
and support it. To get the level of cyber defense and attack 
capability we need, how many people do we need? How do we do 
that equation? I think we are very immature in that area in 
terms of understanding the personnel needs in that area, and we 
need to do more to do that over time.
    Mr. Hoffman. Could I add on to that?
    Mr. Hunter. I am so far past my time.
    Mr. Thornberry. If you have something to add to that.
    Mr. Hoffman. Just add something. Mr. Hunter and I share a 
background with bad haircuts and running clubs and stuff like 
that, so I have to disassociate myself from any implication 
that I might think that technology is the solution to a lot. We 
think of warfare, unfortunately, in stovepipes called air, sea, 
land kind of domains, and we associate either institutions or 
technologies with those.
    To me the most decisive domain, the most important aspect 
of the conflict spectrum is a human domain that cuts across all 
those, and that would be my principal investment area, and 
technology is not going to be--is always an enabler in the 
right context, employed properly with judgment, and that 
judgment comes from investment we have made in commanders and 
people who are working in that battle space that understand 
that. But the human domain is the most decisive domain.
    Mr. Hunter. Thank you, Mr. Chairman.
    Mr. Thornberry. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman, and thank you all for 
being here. And perhaps just going along with that line, Mr. 
Hoffman, and if that is the case, would you say--how would you 
characterize our ability to organize ourselves and have a 
military strategy around that? Is that where we are? It seems 
to me we are kind of far from there, and how do we get there if 
you think that is appropriate?
    Mr. Hoffman. No, I think our strategy in the past, at least 
in my time of service and in the Department of the Navy, has 
been to understand that we need to recruit, sustain, educate--
where I now work in an educational facility--retain and take 
care of the All-Volunteer Force. And in the Defense Strategic 
Guidance, I am surprised, you know, there is an element in 
there in which sustaining the All-Volunteer Force and 
treasuring that in the modern sense is an important part of the 
strategy. Keeping that sustainable is, you know, is an issue 
because of the cost that it has derived.
    But I think there is a recognition in the strategy and the 
building and the Services that, you know, the quality of the 
force is important, the investments in the human domain is 
important, but all these investments are going to be 
prioritized and pressurized in the next few years, both on the 
civilian side and in the military side.
    Mrs. Davis. Is that well organized to fight the hybrid wars 
that we have now?
    Mr. Hoffman. I believe we are organized to fight the hybrid 
wars. The SOF [Special Operations Forces] community has made a 
lot of developments over the last few decades, or at least the 
last decade, which also needs to be sustained and examined 
relative to the future. We have other investments, though, on 
the nonkinetic and the cyber community, do we have the right 
workforce and how do we sustain that workforce? We have done 
research at NDU [National Defense University] on what does that 
mean in the Cyber Command, what aspect of that needs to be in 
the military and what needs to be civilianized. You can get a 
very nice clearance for a military officer with 20 years in the 
Air Force or the Marine Corps, but some of the people we need 
in the cyber community are like some of my daughters or some of 
the boyfriends that come into my house that have--that wear 
jewelry in places that I don't attach, you know, things, and 
they are different. How you bring that into the community, too, 
and sustain that so you have a very capable force? That might 
be an area to explore.
    Mrs. Davis. Mr. Berteau, would you like to comment on that? 
I mean, you seem to suggest that perhaps at least the way we 
organize our new defense strategy doesn't necessarily comport 
with what we are doing right now.
    Mr. Berteau. Thank you, Congresswoman Davis. I think it is 
a little bit hard to tell. You know, the redone strategic 
guidance issued January a year ago was driven by the $487 
billion over the 10-year period that came out from the first 
tranche of Budget Control Act cuts, and it was clearly, by the 
comments of DOD afterwards, it was pretty close to the thin 
edge of what was sustainable against those dollars, right? 
Because no sooner had it come out then you had generals and DOD 
senior civilians saying if you cut further we are going to have 
to rewrite the strategy.
    Well, it is not a very robust strategy if you have to 
rewrite it every time the number of dollars goes down a little 
bit. So you have to say to yourself perhaps we need a slightly 
less fragile strategy. But if it was at the thin edge then we 
haven't really tested it, because what DOD did is they said we 
built the 2013 budget consistent with that strategy. But if you 
look at the issues, most of them were shoved into 2014 and 
beyond. We haven't yet seen that 2014 budget or the Future Year 
Defense Program associated with it, but right now the number 
that that is built to is not the number that is consistent with 
the cap of the Budget Control Act. It is $50 billion too high, 
or $45 billion if you believe the latest reports.
    It is awful hard to assess the disconnects or even lay out 
priorities when you don't have enough money to fund the basic 
piece of it. But what is distressing is those priorities have 
not come into play in the sequestration debate. There has been 
no argument back that says forget this everybody takes the same 
percentage, let us prioritize and put that in place through a 
priority process. Nobody has made that argument. It is hard to 
tell whether it is because we don't know the answers or because 
it is just caught up in a much broader net and DOD is just part 
of that trap, if you will.
    Mrs. Davis. Dr. Lewellyn, did you want to comment as well? 
How do we fix this?
    Dr. Lewellyn. I think, you know, flexibility is the key. I 
have spent a lot of my career working with Navy and Marine 
Corps, and they are very much into task organization and 
flexibility. So I think the more we can get away from standard 
ways and units of approaching things the better. In my own line 
of work in research and development, I think sharing and 
collaboration is being facilitated by information technology. I 
am amazed at the amount of ideas that pass around among the 
younger folks that work for me.
    One of the big problems I see, however, is sharing across 
classification boundaries, looking hard at what needs to be 
classified, what doesn't, so we can get the brightest minds 
working on the hard problems, and that is a challenge we have 
to struggle with.
    Mrs. Davis. Thank you, Mr. Chairman. I will come back. 
Thank you.
    Mr. Thornberry. Dr. Heck.
    Dr. Heck. Thank you, Mr. Chairman.
    Thank you all for being here this afternoon.
    And, Mr. Hoffman, in your opening statement you referenced 
our, the United States' hegemonic position that we now hold 
across the globe and the fact that we have really no near 
competitor. In today's earlier full committee, you know, we 
heard about the potential impacts of sequestration and those 
indiscriminate cuts, and Chairman McKeon stated in his 
questioning that his concern, and I believe rightfully so, is 
that as we make these cuts we may see a decrease in our 
standing not just amongst potential adversaries, but also 
amongst our allies as showing a sign of weakness.
    The question is, my question is, where does that, where 
does sequestration, where will it have an impact on those 
emerging threats?
    What types of threats may emerge due to the fact that we go 
into sequestration and there is this potential perceived 
weakness now of the United States in the loss of our hegemonic 
position? And short of actually replacing the sequester, on 
which capabilities do we concentrate our remaining resources to 
best deter those emerging threats?
    Mr. Hoffman. Until you got to the last thing, I thought I 
could answer the question. The impact of sequestration at a 
strategic level is a torpedoing, I believe, of the perception 
that America is interested and willing to lead. That literature 
in Tokyo, in Australia and in London, where I do VTCs [video 
teleconferences] or have visited in the last year, is commonly 
now referred to in white papers, that America either doesn't 
want to lead, doesn't have the will and the wallet to lead, 
even though the relative power balance for us is we are in a 
rather significantly advantageous position right now, 
particularly in the measures that we add--you know, how much 
money we are spending into defense--which doesn't necessarily 
always equate to an output that is equal to the same thing. But 
we focus on numbers like 535, 555, 575, and we think that 
equates to something, and generally it does, but maybe not in 
regions and other places where people are measuring things.
    The Chinese have their own way of measuring aggregate 
national power, and they put other tangibles and intangibles 
into that. They may perceive it. But in Australia and the 
government in Japan, this idea that we are not able to come to 
an agreement on the spending and the spending priorities and 
put our house in order has already undercut us. And they talk 
about it in papers and they talk about whether or not they need 
to be intimidated or appease China in compensation for that the 
conventional deterrent that we are offering, that extended 
deterrence, is somehow weakened.
    And the other impact on sequestration is, I think in both 
2013 or 2014, we are going to torpedo the industrial base. It 
is far too fragile. I spent 2 years as a political appointee in 
the Department of the Navy working on naval industrial base and 
investments, and I think we will hurt ourselves in that sense. 
And it can be rebuilt, but it is far easier to crash it than it 
is to rebuild it over a period of time.
    So the impact on the threats is not really the threats, it 
is our allies and our perceived perception of who and what we 
are in the world.
    Mr. Berteau. Could I piggyback on that just a little, Dr. 
Heck? You raised the question of potential enemies or 
adversaries showing that America is weak because we can't even 
get our own act together, if you will. And I think that is a 
legitimate concern. You know, the whispering that says, you 
see, you really can't trust the United States. They are going 
to pull back. They are going to leave. They are not going to be 
here.
    Dr. Kissinger in his seminal book on China recently said 
ultimately all of those nations in the region that are not 
seriously already our allies really only want two things: Don't 
make us choose, but don't leave. And anything that creates a 
signal that we are leaving opens a vacuum, if you will. But it 
is equally true for our allies and partners who won't sustain 
what they have.
    Mr. Hunter asked earlier about partnership capacity. And we 
spent a lot, in fact this subcommittee has spent some time on 
building partnership capacity and looking at the questions. But 
a lot of that is at the low end of the spectrum, which is where 
the threat is. There is also partnership capacity we already 
have in high abundance with our serious allies, with Japan, 
with the Republic of Korea, with the United Kingdom, with 
France, with NATO. We need to sustain that partnership capacity 
as well. And whatever we do sends signals to them that it is 
okay for them to do it as well.
    You know, we have done some look at European defense 
spending, and of course, as you all know, it has been coming 
down dramatically and it is going to drop even further. But for 
the first decade of this century, European defense spending 
dropped but spending per soldier actually went up. Their 
technology investment was sustained, if you will. Why? Because 
their force structure actually came down faster than their 
spending did.
    They protected their investment in research and 
development, whereas we use it as a bill payer right off the 
top of the bat. Those are the kinds of signals that are not 
only important internally, but are important externally and 
globally as well.
    Dr. Lewellyn. I would just add to that, that I think 
looking more over the long trend getting past sequester with 
defense funding coming down, the R&D community needs to look 
smartly at how we are investing our skills and capabilities, 
looking across mission areas about what is common technically 
across them to make sure we maximize the commonality. And that 
is the way I would answer your question and deal with the 
science and technical community and our allied countries so we 
convey to them that, hey, we are thinking this problem through 
smartly and we are going to come out the other end as good a 
position as we can be.
    Dr. Heck. Thank you. Mr. Chairman.
    Mr. Thornberry. Mr. Carson, would you like to ask 
questions?
    Mr. Carson. Yes, sir. Thank you, Mr. Chairman.
    It is becoming increasingly clear that our offensive use of 
cyberspace is pretty much a growing threat. While there are 
sophisticated computer systems getting cheaper each and every 
day, it is pretty easy to imagine that some countries or even 
terrorist organizations would lack the resources and knowledge 
to really conduct serious cyber attacks. As we develop 
increasingly sophisticated countermeasures, do you believe that 
we will continue to see cyber threats from around the world or 
will they be pretty much contained to sophisticated governments 
like China?
    Dr. Lewellyn. I think there is certainly a sophisticated 
end, you know, states can organize a lot more capability. That 
doesn't mean I dismiss so-called lone actors. I think we are 
still getting a handle in some areas on the vulnerability over 
all of over systems. There are industrial control systems on 
Navy ships that were bought before the days that we worried 
about cyber attack, and understanding those vulnerabilities, 
which the Navy is starting to do, is important.
    So I think there is work we need to do. We need to be 
careful about the information we put out to share, to 
understand the vulnerability of that information, and be more 
sensitive to the way cyber has infiltrated into all of our 
lives, both personal and from the Government perspective and 
military perspective. So I am not quite at the stage where I 
think it is going to be something that we are going to have to 
worry about for some time.
    Mr. Berteau. Mr. Carson, in many ways the cyber threat is 
the ultimate of asymmetric threats, but it is a very scalable 
asymmetric threat and can quickly become a symmetric threat, if 
you will, because the vulnerabilities that we have continue to 
increase almost at the same rate as in fact our ability to 
defend against and respond to the threats of those 
vulnerabilities.
    My own view--and this is not sustained by any particular 
research but by long-term observation of it--is that the 
various roles of the parts of the Government still remain to be 
resolved a bit. You know, the President's Executive Order that 
he announced last night in the State of the Union that we got 
to read publicly yesterday takes some modest steps in this 
direction, but clearly a lot more is needed, and the role of 
the Congress in providing that more is quite powerful.
    Mr. Carson. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    I had an interesting discussion with a person on the plane 
ride home last week. And he is a third-generation Latino, had 
relatives along the southern border, and we had a lot of 
discussion about many topics, but certainly one of them is the 
rise in narcoterrorism on the border. And I see, Mr. Hoffman, 
that in your testimony you mention that as one of the threats 
and the challenge of the gangs you say as a disruptive force 
inside America and in Mexico portend greater problems down the 
road. And certainly we are starting to see more and more of it 
in our neck of the woods.
    So could you describe more in detail the challenges that 
you think might be faced with the Mexico scenario, from 
technical, intelligence, manpower, and others, and how might 
the U.S. deal with it?
    Mr. Hoffman. Excellent question. It is a little more 
speculative aspect of my statement, but I didn't like the 
trends over the last number of years. More sophisticated forms 
of attacks. More planning of ambushes. More overt acts of 
terrorism against police. Ambushes against American officials. 
Body armor-piercing ammunition. The acceleration of learning 
curve on detonation means of forms of IEDs [improvised 
explosive devices] in Mexico have been going up. These are not 
good trends. So it is in the higher end of the narcoterrorism 
category, not yet merging and converging with kind of the 
conventional capabilities and the irregular tactics of the 
hybrid threat, but it is on the trend line to get there.
    There are a few open source indicators with Middle Eastern 
sources, to include Hezbollah's interest in Latin America and 
Mexico,that would offer more learning curve increases that 
bother me as a concern. I don't have any validated intelligence 
on those whatsoever. When Admiral McRaven and maybe Judge 
Webster are here at the HASC with their Intel overview it might 
be a question to pull out in both classified and unclassified 
sessions.
    But I have had some visits with Southern Command when 
Admiral Stavridis was down there as well, and the development 
of submarines. The sub kind of thing is, when we are talking 
about state level capabilities being employed by narco-
organizations is sort of a hybrid capability that we are 
starting to see.
    So you see this emerging. It is still somewhat speculative 
in my mind. But we are now seeing this kind of activity, and 
the gross acts of violent terrorism to clearly, if not 
eradicate, just make some of the Mexican government irrelevant 
in certain areas is a source of concern.
    What has been going on with our intelligence sharing and 
the training from both, I think, SOF and the FBI [Federal 
Bureau of Investigation], there has, you know, there has been 
assistance down there that is building partnership capacity 
that is perhaps on the low end, as David suggested, but it 
probably has a significant impact. The casualty totals from 
Mexico, you know, the lowest is 30, the highest is 60,000 dead. 
This kind of puts to shame the statistics that people are using 
in Foreign Affairs and big journals right now to suggest that 
the world is getting rather placid. Those people don't count in 
the total. They are not considered to have been casualties in a 
combatant conflict, but clearly these elements, the nonstate 
actors in Mexico, who are doing this deliberately.
    Mrs. Hartzler. It is devastating. And you are right, I 
think a lot of people don't think about there is at least 
35,000 that I have heard, casualties, there. And I mean this is 
just south of us. This is a war going on.
    But I missed the first part of the hearing. So could you 
clarify what you just said about submarines? Who is----
    Mr. Hoffman. Again I am trying to separate my time in the 
Department of the Navy with the clearances I had in this 
particular session, in this particular format.
    Mrs. Hartzler. You are saying the drug cartels down there 
are building a submarine?
    Mr. Hoffman. Yes, ma'am. I think the total number of 
captured submarines now is somewhere between 9 and 12.
    Mr. Berteau. That number is not for public.
    Mr. Hoffman. I have seen photographs of several that we 
have and one of them is in fact framed and positioned in front 
of Southern Command's headquarters. Admiral Stavridis mounted 
one of these submarines in front of his command post.
    Mrs. Hartzler. In my 24 seconds I have left, what can we do 
in the United States to counter this? What would you advise? I 
see you talked about the intelligence sharing.
    Mr. Hoffman. Intelligence sharing. I believe there is 
terrorist financing and network analysis that is probably 
useful to the Mexican authorities. The training. They have done 
much themselves. They have been rather courageous in facing up 
to some of this. There has been a lot of intimidation. It is 
very violent. It is very sophisticated. It is the other 
southern states in Latin America that have more of the 
submarine problem where the drug cartels are sourcing the 
cocaine from for trips up into the United States. And military 
assets and intelligence is necessary to help defeat that. 
JIATF-South [Joint Interagency Task Force-South] is part of 
that, which is an interagency, more of a comprehensive 
approach. Mixing law enforcement and military assets together 
is probably the solution.
    Mrs. Hartzler. Okay. Thank you very much, Mr. Chairman.
    Mr. Thornberry. Which makes it even more disturbing that 
under sequestration the Navy says they are going to pull all 
the ships out of Central and South America. And so you have got 
these drug runners with these submarines or semi-submersibles, 
various things, bringing drugs up and we are not going to have 
any ships there.
    Mr. Gibson.
    Mr. Gibson. Well, thanks, Mr. Chairman. I appreciate the 
panel being here.
    Broader question. Assuming American interest protecting our 
cherished way of life and a flourishing form of life, thriving 
economy, in your research, in your reflection, in your perhaps 
modeling, might there be other strategic approaches beyond the 
one that we have certainly been engaged in since the Second 
World War, initially to confront communism and then since that 
time with regard to hegemony and our presumed responsibilities 
and roles attendant thereof? Are there other approaches that 
you have contemplated beyond, say, combatant commands with 
responsibilities throughout the globe and forward military 
ground forces? Might there be other approaches that would 
secure our way of life and advance our economy?
    Mr. Berteau. If I could, Mr. Gibson, start one minute on 
that and then ask my colleagues here on the panel to comment. 
Mr. Johnson raised earlier the idea of soft power. We looked at 
CSIS about six years ago at something called smart power, which 
is really an amalgam, if you will, how do you integrate better 
across the Government all of the capabilities, not just the 
military and kinetic capabilities or even the intel 
capabilities.
    I think that the question that Dr. Heck raised about the 
role of technology in coming into play here, the question that 
Mrs. Hartzler raised about narcoterrorism, points out to a host 
of seams, if you will, that are inside. And the chairman 
alluded to the consequence of sequestration will actually 
exacerbate those disconnects, if you will.
    It is a hard thing for the executive branch to work 
together in a national security establishment, even in good 
times when everybody has a lot of money. In bad times, when 
everybody is trying to protect their money, they tend to hunker 
down around their core business and not worry so much about 
everybody else.
    So what you need is a scheme, if you will, that will let 
you rise above the core competencies. It is much easier for 
you, because you can be on one committee and another committee 
and cross jurisdictions pretty quickly that way. It is much 
harder for them. And I think that the difficulties are 
exacerbated in a time of sequestration and budget uncertainty.
    I will leave these guys to come up with solutions.
    Dr. Lewellyn. I am reminded of a couple of years ago, when 
the Navy had an advertising slogan called, ``the Navy, a global 
force for good,'' that emphasized its role in providing relief 
in situations after bad weather, tsunamis, protecting the sea 
lanes to encourage trade, providing a framework of 
international agreement and law so that economies can flourish. 
And I think that fundamental mission of alliances and 
strengthening and supporting economic growth short of war, part 
of the shaping and deterrence that I talked about in my 
statement, are critical. And, you know, certainly cheaper than 
fighting a lot of wars both in terms of cost of weapons and 
lives. So I think we need to focus on that, the soft power or 
smart power going forward.
    Mr. Hoffman. I have been working on a grand strategy 
approach to try to think through I think what is our need for a 
balanced and sustainable grand strategy, and I have argued for 
something called forward partnership. It is in the current 
issue of Orbis and the January issue of the Naval Institute 
Proceedings, and the reason it is in the Naval Institute 
Proceedings is it privileges naval forces. I would declare 
victory in World War II and would declare victory in the Korean 
War at this point in time and probably bring back more ground 
force structure from overseas and maybe reduce that and take a 
total force perspective on what our ground force requirements 
are.
    We have a million-man land Army today, plus a 250,000-man 
Marine Corps when you bring in the Reserve into the picture. So 
I believe we have just postured ourselves differently and we 
need to stop doing some things we have been doing. And I would 
use the naval forces and SOF to generate the degree of 
engagement and partnership that is forward. That I think we 
should do, but it is going to have to be less static, less 
vulnerably positioned in one fixed place, and we need more 
freedom of action to move around the world from crisis to 
crisis, because we are not going to populate every crisis with 
brigades or Marine forces, and then leave them there for a 
decade or more.
    So we need some more freedom of action, and the strategy of 
forward partnership is my solution, which I can provide for the 
record.
    Mr. Gibson. Thank you. I would be very interested in taking 
a look at the article. My staff will probably pull it for me, 
though. But thank you for those thoughtful comments.
    What comes to mind is, you know, we certainly saw the rise 
of China's involvement in Africa, and our response was I would 
say pretty typical. I am not so sure it was effective. We 
created another combatant command for it. And I wonder if we 
might be better served leading with the State Department, 
certainly using assets from across the Federal Government, to 
be sure. But when we constantly lead with forward military 
presence, I wonder if we are not fully achieving what it is we 
are trying to do and incurring the cost that evidently is 
difficult for us.
    Mr. Berteau. The question, the core of the question you 
raise, sir, is at its heart, what is the boundary of what is 
DOD's mission and what is the military's mission here? And if 
there is one important lesson from the last 10 or 15 years, it 
is that DOD thinks it knows where those boundaries are. But 
when the Nation needs more in something else and it turns 
around and looks, okay, where else in the Federal Government is 
this capability, and it turns out it is not there, then the 
choice is either let the military do it or have it not be done. 
And the military will say every time, send me, I will get it 
done to the best of my ability. That is what happens.
    We do need to look at that from a broader perspective. We 
need to fund it and prioritize the resources so that capability 
is there, and we need to make sure that at the national level 
that kind of capability is in place. That is a hard thing to 
do. The Congress has pushed for that a number of times. Twenty-
seven years ago this committee took the lead on creating 
jointness inside DOD through the Goldwater-Nichols Defense 
Reorganization Act. However, that is all under one Cabinet 
officer, and that starts in Title X with subject to the 
authority, direction, and control of the Secretary of Defense. 
It is pretty hard to look at the Federal Government and start 
with that same sentence, because if you say subject to the 
authority and direction and control of, ultimately we know who 
it is. It is the President. But to organize and sustain that at 
a lower level bureaucratically, institutionally, is a much 
tougher question. And ultimately we turn back to DOD and DOD 
gets it done.
    Mr. Thornberry. Let me back up from Mr. Gibson's question I 
guess one level. And I suspect I know Mr. Hoffman's answer to 
this because of the article he just referenced. But I guess one 
question is, do we need a strategy? A lot of what you all have 
talked about is the incredible amount of uncertainty in the 
world today. And I think everybody can agree we are not going 
to be able to predict, you know, this conflict or this 
situation. And my perception is that largely we lurch from 
crisis to crisis, making decisions as we go. My perception is 
we didn't do that in the Cold War. There was at least an 
outline of a strategy that was generally followed.
    And so I don't know, Mr. Hoffman, do we need a kind of 
larger national strategy in such an uncertain world?
    Mr. Hoffman. Yes, sir.
    Mr. Thornberry. Why?
    Mr. Hoffman. Emphatically.
    Mr. Thornberry. Why?
    Mr. Hoffman. You need to communicate to the American people 
what treasure they are putting up and why to sell it and make 
it sustainable. You need to shape the instruments of national 
power relative to those that are either soft, medium, or hard. 
You need to articulate to future aggressors what those 
capabilities are and you need to sustain them over a period of 
time.
    I don't know any way of doing that without a strategy. I 
had prepared a statement--there is a book I particularly like 
by an author named Rumelt, which Mr. Marshall in the building 
and Dr. Krepinevich also likes, Good Strategy/Bad Strategy 
[Good Strategy/Bad Strategy: The Difference and Why it 
Matters], and it has got a couple good lines in there. But 
particularly this idea that strategy is not a dog's breakfast 
of everything you want to do just piled up. It is focused 
effort, prioritized resources, which are tradeoffs. I am not 
comfortable with some of the tradeoffs in my own strategy. One 
takes an Army below 500,000 and we start absorbing risk. The 
Marine Corps goes down to a certain level in the 175s, and for 
every 5, 10K, we start absorbing risk. But we are also 
absorbing risk by continuing to borrow the amount of money we 
are borrowing. Very soon we will have interest debt payments 
that exceed the Department of Defense's TOA [total obligation 
authority]. That is the ultimate limitation of strategic 
action, being constricted by ourselves over time, because we 
are going to pay off old decisions and choices and tradeoffs 
that we weren't really willing to make.
    When it gets down into force planning and strategy, 
Professor Colin Gray in Europe, one of my mentors in life, said 
there are only two principles: Prudence and adaptability. And 
we need to be very prudent about the risks that we are 
absorbing and very conscious about those, and maybe perhaps 
adaptable is a better term than flexibility. Flexibility is a 
force that can do a lot of things, you are trading off some 
readiness. But adaptable is somebody that can learn faster than 
the opponent. It is a football-soccer--or a soccer fullback 
that finds himself in a football game playing fullback and 
actually can learn the position fast. And that is the challenge 
we had in 2003 to 2007 in Iraq. We might have been flexible but 
we weren't adaptable. We didn't learn fast enough. But I 
believe a strategy is essential.
    Mr. Thornberry. Do you all have comments on that?
    Dr. Lewellyn. I would just add, I think, you know, I have 
spent my career in the business of trying to help the 
Government develop things the private sector isn't developing 
on their own. And so I think you need a strategy to guide 
defense Government investment in technologies that wouldn't 
naturally flow from the private sector in the dealings in the 
marketplace. And so to the extent that it is important to 
develop capabilities unique to the Government, you need a 
strategy to guide that. And to the extent it is interlocked 
with a diplomatic strategy so we take advantage of both soft 
and hard power, I think that is good.
    Mr. Berteau. Mr. Chairman, I have a predisposition that is 
in line with the idea that maybe we don't need a strategy. I am 
ultimately a resources and management guy, and it is my belief 
and my observation over 35 years that resources drive strategy 
way more than strategy drives resources. But ultimately much of 
the debate we have about where we are going to take our 
national security establishment, and particularly the 
technology investments for that, is a fight between the past 
and the future. And in that fight, the past is much more 
powerful than the future. It has all the champions, it has all 
the advocates, it has all the four-stars. They are all lined 
up. And the strategy is the best hope that the future has to be 
able to stand up in that fight and make it more of a fair 
fight. And so I tend to lean back toward, yes, we probably we 
do need a strategy, even though ultimately it is the budget 
that matters.
    Mr. Thornberry. Interesting perspective. By the way, I was 
on that smart power commission 6 years ago, which I think was 
very helpful, look at having this full array of tools. The 
Government is not very well positioned to use them all.
    Dr. Lewellyn, I wanted to get back to some things that you 
talked about at the beginning. And I know this is an interest 
Mr. Langevin and I certainly share about nonkinetic weapons of 
various kinds. And you mentioned them.
    I would be interested in your evaluation of how well we are 
pursuing those things. Mr. Berteau talked about that a lot of 
innovation these days is coming from the global commercial 
sector, not from Government contracts. You know, I kind of 
wonder how that applies to development of lasers and the other 
kinds of nonkinetic sorts of things that you referenced. So 
kind of give me an evaluation of how we are doing in pursuing 
those things.
    Dr. Lewellyn. My sense that the effort put into those areas 
is greatly increased over the past few years as emerging 
threats in the A2/AD, or anti-access/area-denial area, have 
grown. A lot more cooperation in research between the Services 
and their research establishments and reaching out into the 
private sector to address those things. So I see a lot more 
effort going into those areas. One of the complicating factors 
is a lot of the capability is covered by fairly strict 
classification guidelines, and overcoming those and working 
within those guidelines is one of the challenges, I think.
    Mr. Thornberry. Well, is another challenge what Mr. Berteau 
just said: The past is fighting the future. The past is all 
about kinetics. They have got an advantage. And aren't there 
real issues of just in competing for increasingly scarce 
dollars about what some people will consider pie-in-the-sky 
sorts of stuff?
    Dr. Lewellyn. My own view is that dealing with some of the 
emerging threats strictly with kinetics is prohibitively 
expensive. And so to deal credibly with the threats people are 
seeing, I think you need the mix of capability. You need to be 
able to take advantage of all the tools that are out there. 
Some of them are unproven yet in the real world, and so we need 
to be sensitive to, you know, backup capability, as I 
mentioned. One of the great advantages of kinetic systems is 
you can immediately see their results. And so developing our 
abilities to understand how effective we have been quickly will 
be part of developing some of these new systems and tools.
    Mr. Thornberry. Mr. Hoffman.
    Mr. Hoffman. Yes, sir, I think you put your finger on 
something. In the business literature we refer to this as 
bringing about disruptive change, and the barriers to entry 
culturally, psychologically, the metrics that are available. In 
my time during the DON [Department of the Navy] trying to bring 
around the electromagnetic railgun, to kind of scale the power 
system is something that basic technology can be developed in 
the civilian world. But the things that we really need in the 
Department of the Navy for the scale of that kind of system, 
the power generation of 30 million joules or something to 
launch something, once that technology comes about it is going 
to go have to be induced by Government because of the scale. 
But there are some great savings and great strategic utility.
    But it is very hard to bring that about. The same thing 
goes on with the UCLASS [Unmanned Carrier Launched Airborne 
Surveillance and Strike] with the Department of the Navy trying 
to bring unmanned systems. We have existing programs in the F-
35 [Lightning II Joint Strike Fighter], and we have a future. 
We have a fair idea what the cost of capability is going to be 
over time, and we have a program, and we have all the pieces in 
place, and we have another potential. And when do we shift over 
from 100%/0% to some mix of manned and unmanned aircraft is a 
hard thing for military cultures and institutions to bring 
about.
    Mr. Berteau. Mr. Chairman, could I add one sentence to 
that? I recognize the time constraint here. For many of these 
if we don't figure out how to take advantage of them and 
incorporate them, somebody else will. And we need to take into 
our calculus and our calculation as well, because otherwise we 
will be on the losing end of the asymmetric advantage if we are 
not careful.
    Mr. Thornberry. Well, and actually that is what I wanted to 
ask you. So economies that are more controlled than ours, do 
they have an advantage in developing some of these nonkinetic 
systems, as an example?
    Mr. Berteau. I think there is an advantage. And, you know, 
you look at the Chinese economy, which has been a remarkable 
story of economic growth and distribution internally. But much 
of it has been essentially copying what others have done. I 
mean, if you look at the ratio of new patents per country, if 
you will, you know, China still trails far behind. But they are 
very good at taking what is developed elsewhere and manifesting 
it and magnifying it considerably. And I think they will 
continue to get better at that, if you will.
    Clearly our relationship with China from a geostrategic 
point is way more complicated than we can go into in the 
context of this hearing. And I think we are still looking for 
the recipe book of how do we get a decent meal out of this? But 
nonetheless we have to recognize that they can bring critical 
mass to bear on these kinds of tasks, if you will, in a way 
that a free market economy often will not do, because it is not 
just driven by market opportunities, it is be driven by a 
longer-term view.
    Mr. Lanvegin. Thank you, Mr. Chairman.
    And to our witnesses again, thank you. This has been a 
fascinating discussion. And I would like to maybe turn back 
again to the discussion we were having about soft power and 
where we target our resources. And one of the reasons why I 
thoroughly enjoy serving on the Intelligence Committee and also 
serving here--and I am very pleased that the committee has 
decided to roll the intelligence portfolio into this 
subcommittee--is that good intelligence is always going to be 
the pointy tip of the spear. You know where to put your 
resources, you know where the enemies are, you know where your 
adversaries are, you know where to focus your resources. And 
that in and of itself becomes a force multiplier.
    So what I want to know is how do we get better at 
predicting and therefore targeting, you know, where the 
problems are before they arise? It astounds to me that we 
haven't gotten better at that. In particular, you look at Mali, 
for example. The enemy there, the universe of the enemy there, 
if you will, is in the hundreds. You know, we are not talking 
about tens of thousands of enemy combatants. It is in the 
hundreds. And yet you have a nation-state like France has to, 
you know, come in with overwhelming power and rout out the, you 
know, the enemy there.
    It just seems it is such a disproportionate way to use 
resources, if you will. If we could have gotten better at 
predicting that something like Mali would have arisen, a lot of 
these things could be avoided. So how do we get better at that 
and where do we target our resources in terms of developing 
that soft power capability so it is both predictive, but also 
responsive?
    Mr. Berteau. This is a question we have been wrestling with 
literally ever since the commission completed its work in 2007 
and CSIS issued their report. A lot of effort was focused on an 
organizational structure, if you will. How do you get a 
national security infrastructure in line that will wrestle with 
these questions? But that almost falls into the category of you 
have got a different tree but you have the same monkeys. The 
same problem, if you will, are still there. Changing the tree 
doesn't remove the problems.
    Ultimately I think it comes back to an integration across 
the branches of the Federal Government, and that is both on the 
executive branch side, where that is very difficult, where 
every institution is required to take care of itself, and on 
the legislative side, where there are champions for each of 
those and the structure on the legislative side is set that 
way.
    The Intelligence Community actually offers an opportunity 
to offset that, and the creation of the Director of National 
Intelligence, and that infrastructure, if you will, both to 
focus the sharing opportunities and to make sure that resource 
are allocated to the most significant threats or payoffs was a 
very positive step in that direction. It is a long ways away 
from being successfully implemented, but it is a core enabler, 
if you will, to move forward in that regard. You probably need 
the equivalent infrastructure in other areas of that enabling 
capability.
    You are right about Mali. It is not only--only a handful of 
people. They didn't sneak up on anybody. I mean, we saw them 
coming for years and we knew what was going to happen, we knew 
what happened when it happened. And yet it takes--prevention 
would have been far easier, if you will, than the cure now has 
turned out to be. The issue seems to be can we do that for 
everywhere for everyone? And the answer to that is: Probably 
not. So then how do we choose amongst those?
    We don't have a good structure in place to do that, either 
inside the executive branch today or on the Hill for that 
matter. And again the Intelligence Committee is about the only 
place where those things come together, but the reach from 
there to the solutions is bounded by the institutional 
structures that are in place.
    I will have to think harder on that question. I mean, I 
think I have actually helped you define the problem better than 
helping you answer it here this morning--or this afternoon. I 
apologize for that.
    Mr. Langevin. I appreciate your thoughts.
    Anybody else want to comment.
    Dr. Lewellyn. I would agree that organization is the issue. 
And this is illustrated by a story I recently heard during a 
military operation. I heard from someone that they got some 
very useful information from a former--from a naval officer who 
had student friends from a former involvement with an overseas 
university who was getting compiled Twitter feeds from the 
country of interest, and it was leading in the intelligence by 
several hours. So, again, taking advantage of all the 
information that is out there, it is an organizational issue, I 
think is something we all have to struggle with and understand 
how we can do that in a Government context and take advantage 
of all the information that is available to help us.
    Mr. Hoffman. Very quickly, I am not sure that the solution 
is technological in nature. It is about investing in people, 
relationships, understanding foreign cultures, and 
understanding at a level of detail which I don't think we had 
in that particular case. And I am always very concerned when I 
hear the word ``predictive'' and strategy is based upon some 
sort of a forecast and some kind of a logic. But the reason 
some of these people end up where they end up is not because we 
didn't predict, it is because they are human on the other side, 
and we are in a competitive relationship and they have gone 
where we are not or where their greatest advantage is. I don't 
know if we can anticipate that interaction all the time over a 
long time. But we can make some forecasts about technologies 
and investments and move the ball down the field.
    Mr. Berteau. Could I add one thing to that? The budget 
cycle that we provide resources is so long and slow. The review 
board that the Secretary of State put in place after the 
Benghazi incident made a whole host of recommendations and they 
were presented up here some months back. One of them was to 
create a fund that would be available for the 20 most at-risk 
embassies and consulates so that we could rush security to 
those when it came time. But if the look at the lead time to 
put that funding into the budget, for September of 2012, when 
the Benghazi attack occurred, it would have had to have been in 
the 2012 budget, which the State Department started putting 
together in the summer of 2010. So in 2010, somebody would have 
had to say, okay, let's look at Libya. Well, next year there 
will be an uprising, Gadhafi will fall, we will be moving in, 
we will have a consulate in Benghazi, and it will be at high 
risk, and therefore we have to put the money in the budget 
right now.
    Can you imagine them putting that money? Can you imagine 
OMB [Office of Management and Budget] actually approving it? 
And can you imagine the Appropriations Committee leaving it in 
there? We have a real disconnect between the cycle time from 
building the resources and the necessity to respond quickly and 
with agility to evolving dynamics, and that is something that 
we are going to have to wrestle with very clearly. That is much 
more than an organizational question as well. It is really a 
very fundamental process question.
    Mr. Langevin. Let me turn to another area that I spend a 
lot of time on. That is on the cybersecurity issue. And 
obviously that is--it is an issue that is going to be with us 
to stay for the foreseeable future and it is going to become 
more and more challenging and important as we go forward.
    So the Pentagon right now is in the process of what could 
be a major shift in how they are organized and how they defend 
and also dealing with offensive and exploitation, as well as 
other things. So how do we rightsize our cyber force, if you 
will, and our cyber strategy? Obviously, the Pentagon hasn't 
quite figured that out either, although they are getting there 
and it is starting to coalesce, if you will, around a 
structure. But we are not completely where we need to be.
    And in addition to that, as we saw on the news lately--and 
this is something that Mac and I have--the Chairman and I have 
studied for a while--that we don't nearly have the right 
personnel, enough of the right personnel in the right places in 
terms of what we actually need.
    Mr. Berteau. It is very instructive to look back at 
Secretary Panetta's speech last October in New York, which was 
a sea change in the way that the Defense Department was 
publicly characterizing both its thinking about cybersecurity--
he used the cyber Pearl Harbor, et cetera, example--but more 
importantly about how he saw and how the Department saw its 
role in this process. Because that statement very clearly said 
we have wrestling with the--I am paraphrasing--we have been 
wrestling with the question of, is it DOD's job to defend DOD 
or is it DOD's job to defend America? And Secretary Panetta 
came out clearly and publicly stated it is our job to defend 
America. That was the first time that DOD had publicly laid 
that out.
    The implications of that for the kinds of structure you 
need, for the kinds of capability you need, for the kinds of 
people you need, for the kinds of funding you need are still 
being sorted out. Whether they are going to be reflected in the 
fiscal year 2014 budget that ultimately finds its way up here 
remains to be seen. The impact of sequestration just on 
personnel alone, just as the economy is starting to come back 
we are going to take all of the people we have been struggling 
to rebuild the workforce that got gutted in the previous 
drawdown and have finally started to get it back up, not just 
in cyber but elsewhere, and now we are going to say to these 
folks, well, take a day off a week without pay but keep doing 
100 percent of your work, just with 80 percent of your pay and 
then we will get back to you. Anybody who has got a better 
opportunity to go work this somewhere else is clearly going to 
at least consider that opportunity more strongly than they did 
before.
    Dr. Lewellyn. As I said earlier, I have been struggling 
personally from an intellectual level about how to figure out 
how you resource cyber? How much do you need for a pound of 
cyber? I think one of the key issues Mr. Hoffman alluded to is 
what is the right mix of private sector, Government civilians, 
Government contractors, and military folks to deal with some of 
this stuff once you sort out what the missions are going to be 
and what the responsibilities are, as Mr. Berteau talked to.
    So I think--it is not a very satisfying answer--but I think 
we need to do a lot more work at how we want to sort out those 
responsibilities and the amount of money it is going to cost to 
do so.
    Mr. Hoffman. Sir, Mr. Thornberry and I worked on this 
particular problem more than a decade ago, kind of struggling 
with this during the Clinton administration, whether or not 
certain tasks belonged in the Commerce Department or the FBI. 
The Clinton administration had gone with the law enforcement 
model and most of the constituencies in telecommunications, 
banking, finance, and the computer companies didn't want to 
participate at that time.
    I don't know if we have gotten to the recognition in the 
country yet that the character and nature of the threat is so 
severe that this is something we want the Pentagon to do beyond 
the military sphere, so defending itself. That is a larger 
strategic issue of what is important to the country and what 
political values and traditions we want to adapt perhaps to a 
new reality.
    A decade ago I would have been resisting. I resisted the 
FBI model of the Clinton administration and we tried to create 
something else I don't think has emerged with the right level 
of robustness. Most of that comes, however, from the American 
population and business leaders who are not interested in the 
Pentagon running airports, running ports, or running networks 
necessarily. That is a huge strategic issue.
    For the committee, however, getting the right size and the 
structure of the organization, what needs to be a joint entity 
and what needs to be repeated, and what I have seen is the 
proliferation of cyber commands in the Services, that is a 
macro-level mission issue, a Key West II kind of issue that I 
think does merit, just inside the Department of Defense and 
your committee, some serious consideration, and from that you 
will get the right size and the right population mix from that.
    But that is an important thing to take on. I don't have an 
answer for you. I just noticed that we have been standing up 
something that I don't know can stand up to a management and 
strategy review right now.
    Mr. Langevin. Well, on that point, I think this is an area 
where you all could make major contributions in helping us to 
answer these questions of what does the right size of a cyber 
force and strategy actually look like. And hopefully we can 
continue our discussion.
    With that I will yield back. Thank you, Mr. Chairman.
    Mr. Thornberry. Mr. Gibson, do you have any other 
questions?
    Mr. Gibson. Thanks, Mr. Chairman.
    While I have you, I am just curious your response on a few 
things here. China. Given their economy, given their current 
investments in national security, do you think they are on a 
trajectory to be aggressive and bellicose towards their 
neighbors? And how do you think they view the debt that we have 
to them in relation to any of this?
    Mr. Berteau. We did take a hard look at that in the study 
we did on the Pacific and the pivot to Asia last year, and I 
will be happy to provide you with that report, if you will.
    Many of the focuses were aimed at DOD, but obviously we had 
to look at China as a big part of that.
    The U.S. has an enormous opportunity today across the 
Pacific Rim, in part because China overplayed its hand pretty 
heavily in 2009, 2010, 2011. It gave the opportunity for a 
number of countries to encourage more U.S. engagement and more 
U.S. interaction with them, if you will. We need to be careful, 
though, that we don't build the strategy on the assumption that 
China will always be more heavy-handed than we are, because we 
can't necessarily count on them to play that out over time. So 
there is a rare opportunity for us as a country to take 
advantage of building better relationships with partners across 
the region.
    But I think the question of the future trajectory of China 
is really one that is not predetermined by either the amount of 
money they are spending--which is huge, they have quadrupled 
their defense spending over the last 10 years, which has no 
country in the world has done, and they are on a path to 
continue building that up. They are a long ways away from being 
able to be seen as a peer competitor to the U.S., but within 
the region in which they operate that is not necessarily the 
standard that they have to aspire to. But it is far from 
inevitable that that is the outcome that we are going to play.
    We became convinced--I certainly became convinced--I mean, 
I am a cold warrior in the way I think about things because 
that is the world I grew up in and it is what I was trained in, 
and it took me a while realize that the old strategy that we 
applied to the Soviet Union is not going to work with China, 
you know, and in the long run the whole world may be worse off 
if we attempt to do that as well as the region itself. But what 
we replace that with is still evolving, if you will. How do we 
behave in such a way that it encourages China to become a 
viable participant in a global economy, which is clearly in 
their interest in the long run but may not be in the interest 
of the leadership in the short run, is a challenge we haven't 
begun to sort out yet.
    There is a very strong military side to it, though. Every 
morning when the Chinese wake up and they ask themselves the 
question, is today the day that we should go confront the U.S., 
we want them every day to answer that question, not today. And 
that is an important part of the equation that I think we have 
to sustain all the way through the process.
    Dr. Lewellyn. As someone who focuses on science and 
engineering, I like empirical things, okay, and one of the 
empirical things about China is something that Mr. Hoffman 
mentioned, namely the demographics, their aging society and the 
economic strain that it is going to put on them. So I think in 
the long term I am not clear where China is going in terms of 
their ability to put money at the rate they have so far into 
defense.
    To echo what Mr. Berteau has said, I think going forward we 
need to maintain our edge, but we need to be very sensitive 
about how the way we use our military force in the area is 
understood by China. We don't want to do anything in terms of a 
test of a system or reaction in some way that we don't 
understand that they might not see it as, I wouldn't say 
benign, but nonthreatening to them, if it is not aimed at them.
    So I think there is a community of people looking hard at 
how the leadership in China thinks and how the people react to 
that leadership and we need to be sensitive to that going 
forward.
    Mr. Hoffman. It is a crucial issue to try to get our hands 
around. Again, I am not an Asian expert; I am more of a 
generalist. But it is important to point out that this is not a 
monolithic entity, that there are factions in there. The way 
the military is acting vis-a-vis policy elites or the ruling 
class is somewhat different. This is a command economy that we 
are dealing with.
    I find military modernization to be significant, but not 
overly concerned. I think as David pointed out, a peer standard 
is not necessarily the standard. The investments seem to be 
smart. They seem to be niched. They seem to be deliberately 
asymmetric, not, you know, out of complete whack.
    Dr. Lewellyn's comment, he has got some good comments in 
there about strategic culture, I am not sure we understand or 
have invested enough to the same degree we did for those of us 
who were Cold War warriors. We thought we understood the Soviet 
Union and we had Russiantologists. I work with a China center 
at NDU that was created by the Congress and we work at that, 
but it is a small shop. It is worthy of thinking through.
    My one caution with them, in thinking about them--and David 
pointed out they have been a good strategist for us, they have 
created more problems for themselves and have brought more of 
our allies towards us, so that is a really good deal--but they 
got so aggressive when their economy was one-third of the size 
of ours, and it is now in the 40s going to about 50 percent, 
and depends on where we are 5 or 10 years from now. If they got 
that aggressive when they were one-third, what is it going to 
be like when they are at half and two-thirds? And this gets to 
the comments you see in the Japanese literature and the 
Australian white papers. Those kind of trend lines and the 
crossover points are being watched by people in the Pacific and 
it raises concerns to them.
    Mr. Thornberry. Mr. Hoffman, going back to the work you 
have done on hybrid warfare, it seems to me there is a trend 
toward states using hybrid tactics, maybe through others or 
employing others. The country may get organized crime to do 
their bidding or, you know, that sort of thing. Not direct 
state action, but kind of working in and through others, using 
a variety of tactics. Do you think that is a trend that is 
happening and will we see more of it?
    Mr. Hoffman. I do believe it is a trend. I do believe we 
are going to see more of it. But a lot of it is going to come 
from the bottom coming up. Smaller actors are finding lethal 
means cheaper, more lethal and more effective for them. So that 
is kind of bringing the lethality up to what used to be the low 
end of the conflict spectrum, so Mexico, Latin America, 
Hezbollah, these other kinds of actors.
    But I do believe that states are sending some of this 
technology to the level. So I see things converging, the 
nonstate actors getting state-like capabilities because of just 
the lower cost and the proliferation, and then the Hezbollah, 
particularly the Iranian export of this and the use of proxy 
forces by people like in Iran the Quds Force. This is their art 
form. And they make things like EFP [explosively formed 
projectile] or they make the tactics and the training to bear. 
So when it shows up in Venezuela or shows up in Latin America 
or Mexico I have a cause for concern.
    This is one of the issues with the work in the QDR 
[Quadrennial Defense Review] and the DSG [Defense Strategic 
Guidance], is the conversation in the Pentagon is that threats 
are diverging, we have low-end threats and we have high-end 
threats. And my perspective is the opposite. We have a 
convergence in the middle, which is why my statement says--and 
RAND concurs with me--we need to mind the middle. This is where 
the future is going in terms of more frequency than we thought 
of in the past.
    Mr. Thornberry. Yes. And kind of springing from there, Mr. 
Berteau, you talked about CSIS' work on internal cost growth 
within the military. So X number of people are costing us more 
and more, someday there won't be anything left for investment. 
And yet we have to look at this full array of challenges. How 
are we going to--I don't know, this is, I guess, the too 
difficult question to ask, but you just have to think, how do 
we get from here to there with the limited amount of 
investments and this battle between the past, the future, all 
of that?
    Mr. Berteau. And that convergence of both state and 
nonstate. Nowhere is that probably going to be more evident 
than in the realm of cyber, where in fact not only is it 
already sort of overlapping, but we have our biggest challenge 
is identifying and characterizing the source of the activity 
when it occurs and tracking it back to anybody.
    In terms of how do we get our arms around this, you know, 
it is pretty easy to sit here and say we should be able to 
defend America pretty darned well for $500 billion a year. And 
ultimately if you started from the ground up and built the 
Defense Department to be able to respond to all these threats, 
you probably wouldn't build the Department that you have today. 
So the real question is, how do we evolve to what we need to 
have from where we are right now? I characterize that as a 
battle of the past and the future, but it is really more 
complicated than that. That sounds way too binary, if you will.
    I think it comes down to incentives. Where are the 
incentives lined up that reinforce behavior that strengthens 
the status quo, or that focuses on looking backwards, if you 
will, versus the incentives that realigns towards strengthening 
the agility and the flexibility to deal across the future?
    One of the powerful forces of Goldwater-Nichols was it 
changed the incentive structure, and it changed it at every 
level, from the individual promotion all the way to the 
institutional alignments and so on. I haven't manifested that 
in kind of a portfolio of solutions, but we have been spending 
some time wrestling with that question of, how do you structure 
incentives? It would go all the way from the 6.1 basic research 
at the universities and how do you structure an inventive that 
will sustain and maintain that capacity independent of return 
on investment kinds of figures, all the way up to the broader 
institutional levels of how do you incentivize the State 
Department, the U.S. Agency for International Development, the 
Defense Department, the Treasury Department, the Justice 
Department to cooperate more together in that global 
interaction, if you will, at the lower end of the spectrum?
    So I think those incentive structures are the key, and it 
is what we are going to try to focus our research on in the 
coming months.
    Mr. Thornberry. Well, I think that is something that all of 
us can work together on. Kind of back to money for just a 
second, regardless of how sequestration and the CR come out, we 
are going to having tight defense budgets as far as the eye can 
see. And yet we can still have this internal cost growth that 
you are talking about, we have this full array of challenges 
that are kind of converging, and we have this need to put money 
into the future. And to me that means we are going to have to 
figure out ways to get more defense out of the dollars we 
spend. I think the full committee is going to be doing a 
variety of things in the future looking at that. And needless 
to say, we need all the help we can get in trying to sort 
through the right incentives. A lot of times passing a law 
doesn't get the job done. It determines the culture and the 
incentives that go within that culture to really be successful.
    So, anyway, I think that is it. Thank you all very much for 
your testimony and for your statements. It has been very 
helpful and a good way for this subcommittee to start. So thank 
you.
    With that, the hearing is adjourned.
    [Whereupon, at 3:55 p.m., the subcommittee was adjourned.]


=======================================================================




                            A P P E N D I X

                           February 13, 2013

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 13, 2013

=======================================================================



    [GRAPHIC] [TIFF OMITTED] T9492.001
    
    [GRAPHIC] [TIFF OMITTED] T9492.002
    
    [GRAPHIC] [TIFF OMITTED] T9492.003
    
    [GRAPHIC] [TIFF OMITTED] T9492.004
    
    [GRAPHIC] [TIFF OMITTED] T9492.005
    
    [GRAPHIC] [TIFF OMITTED] T9492.006
    
    [GRAPHIC] [TIFF OMITTED] T9492.007
    
    [GRAPHIC] [TIFF OMITTED] T9492.008
    
    [GRAPHIC] [TIFF OMITTED] T9492.009
    
    [GRAPHIC] [TIFF OMITTED] T9492.010
    
    [GRAPHIC] [TIFF OMITTED] T9492.011
    
    [GRAPHIC] [TIFF OMITTED] T9492.012
    
    [GRAPHIC] [TIFF OMITTED] T9492.013
    
    [GRAPHIC] [TIFF OMITTED] T9492.014
    
    [GRAPHIC] [TIFF OMITTED] T9492.015
    
    [GRAPHIC] [TIFF OMITTED] T9492.016
    
    [GRAPHIC] [TIFF OMITTED] T9492.017
    
    [GRAPHIC] [TIFF OMITTED] T9492.033
    
    [GRAPHIC] [TIFF OMITTED] T9492.034
    
    [GRAPHIC] [TIFF OMITTED] T9492.035
    
    [GRAPHIC] [TIFF OMITTED] T9492.036
    
    [GRAPHIC] [TIFF OMITTED] T9492.037
    
    [GRAPHIC] [TIFF OMITTED] T9492.038
    
    [GRAPHIC] [TIFF OMITTED] T9492.039
    
    [GRAPHIC] [TIFF OMITTED] T9492.040
    
    [GRAPHIC] [TIFF OMITTED] T9492.041
    
    [GRAPHIC] [TIFF OMITTED] T9492.042
    
    [GRAPHIC] [TIFF OMITTED] T9492.043
    
    [GRAPHIC] [TIFF OMITTED] T9492.044
    
    [GRAPHIC] [TIFF OMITTED] T9492.045
    
    [GRAPHIC] [TIFF OMITTED] T9492.046
    
    [GRAPHIC] [TIFF OMITTED] T9492.047
    
    [GRAPHIC] [TIFF OMITTED] T9492.018
    
    [GRAPHIC] [TIFF OMITTED] T9492.019
    
    [GRAPHIC] [TIFF OMITTED] T9492.020
    
    [GRAPHIC] [TIFF OMITTED] T9492.021
    
    [GRAPHIC] [TIFF OMITTED] T9492.022
    
    [GRAPHIC] [TIFF OMITTED] T9492.023
    
    [GRAPHIC] [TIFF OMITTED] T9492.024
    
    [GRAPHIC] [TIFF OMITTED] T9492.025
    
    [GRAPHIC] [TIFF OMITTED] T9492.026
    
    [GRAPHIC] [TIFF OMITTED] T9492.027
    
    [GRAPHIC] [TIFF OMITTED] T9492.028
    
    [GRAPHIC] [TIFF OMITTED] T9492.029
    
    [GRAPHIC] [TIFF OMITTED] T9492.030
    
    [GRAPHIC] [TIFF OMITTED] T9492.031
    
    [GRAPHIC] [TIFF OMITTED] T9492.032
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 13, 2013

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. NUGENT

    Mr. Hoffman. Sir, as I understand the context behind your question, 
given the disparity in relative national power between Pakistan and 
India, what do we expect Pakistan to do?
    As I noted before the committee, I would expect Pakistan to 
continue its nuclear modernization program. By most expert accounts it 
is the fastest growing nuclear weapons stockpile in the world, but 
admittedly, this is coming from a smaller baseline than the major 
nuclear powers. Nuclear weapons have been and will continue to be 
Pakistan's principal strategic deterrent against what its military-
intelligence leadership views as an existential threat from its larger 
neighbor.
    At the same time I would expect Pakistan's military to continue 
developing a broader range of capabilities to address the proximity and 
potency of an internal militant threat that has already caused it to 
move a large amount of its conventional military forces structure away 
from India and into its western border territories. While Pakistan's 
civilian leadership periodically labeled the internal threat as the 
nation's most severe, it remains unclear whether Pakistan's senior 
military and intelligence leaders view the problem similarly. 
Nonetheless, I expect Pakistan's military will continue to improve its 
training and operations against military groups in the west who 
formally oppose the state while retaining as much capacity as it 
possibly can to counter India.
    I do not expect Pakistan's military-intelligence leadership will 
extend or expand its longstanding practice of employing proxy forces or 
terrorist activities against those neighbors it feels threatening. I am 
not aware of any evidence that Pakistan's security agencies have broken 
its links or financial support to select militant groups it believes 
provide to the defense of Pakistan in some manner but have been labeled 
as terrorist organizations. I would expect that Pakistan's military-
intelligence leadership will continue to use all the tools it has to 
keep India off balance and safeguard its interests inside Afghanistan. 
[See page ??.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 13, 2013

=======================================================================

      
                    QUESTION SUBMITTED BY MR. FRANKS

    Mr. Franks. 1) I would like to know from your perspective, do you 
feel the Nation is currently facing a threat from an EMP attack? Do you 
feel that the Nation is prepared to address this threat? And if not, 
how would you address mitigating this threat. Further, do you feel the 
threat is grave enough to be reflected in our National Strategic 
Guidance?
    Mr. Hoffman. Sir, an EMP attack is an example of the sort of 
asymmetric approach we can anticipate from states or reasonably well-
resourced nonstate actors. I believe that the most likely contingencies 
would be overseas rather than a massive attack in the homeland. Such 
attacks should be anticipated by our combatant commands and the 
Services in their preparations and in the hardening and redundancy of 
our various military C2 or ISR systems.
    Such attacks could be large scale in nature, by a country that 
detonates a nuclear-like system in the atmosphere to attempt to negate 
our intelligence and communications links that confer such an advantage 
to us. I could also imagine more tactical EMP devices being used near 
bases where U.S. forces are operating or providing ground-based 
missiles defenses to disrupt our access into a region at ports or 
airfields or to try to weaken our support to a coalition member or 
partner nation.
    National guidance should reflect the nature of this threat 
consistent with its probability and consequence among all other 
contingencies. Both the Department of Defense and Department of 
Homeland Security should consider this threat grave enough to 
incorporate into planning and acquisition requirements. Because of this 
threat and other cyber threats, the ability to operate under degraded 
C2 levels after an EMP attack is something we can and should train for. 
Enhancing network system resiliency is a must.

    Mr. Franks. 2) I would like to know from your perspective, do you 
feel the Nation is currently facing a threat from an EMP attack? Do you 
feel that the Nation is prepared to address this threat? And if not, 
how would you address mitigating this threat. Further, do you feel the 
threat is grave enough to be reflected in our National Strategic 
Guidance?
    Dr. Lewellyn. In principle, EMP (electromagnetic pulse) attacks 
could arise in two cases. First, a nuclear conflict between regional 
powers could affect U.S. military forces and U.S. citizens, allies, and 
commercial interests in the area. Second, a nuclear attack aimed at 
U.S. forces or territory would have a direct effect on military forces 
or the homeland. The EMP effects of a nuclear detonation could damage 
electronic and other equipment including satellites, mobile and line 
communications, consumer electronics, and power distribution systems. 
The magnitude of damage from EMP would depend on the altitude of a 
nuclear weapon when it detonates, its yield, the distance of the area 
of interest from the weapon at detonation, any intervening geographical 
features such as mountains, the local strength of the Earth's magnetic 
field, and the level of protection or hardening from EMP of potentially 
vulnerable equipment. I believe the likelihood of such attacks is small 
and is mitigated by our deterrence posture to include missile defense.
    Although not attacks per se, geomagnetic storms resulting from 
solar activity can cause effects similar to those resulting from a 
nuclear detonation. Solar activity occurs in cycles, and we have seen 
an increase in solar activity over the past year. Prior to this 
increase, the most recent significant activity occurred in 1989 when a 
severe geomagnetic storm caused the collapse of a Canadian power grid. 
This predates the tremendous increase in the use of smart phones, 
tablets, and other electronic devices we see today, and it's likely 
that a storm of similar magnitude in the future would have some effect 
on these systems.
    In my view, the Nation is not prepared fully to address this 
threat. Our military forces are working to harden critical systems 
against the effects of EMP. Some systems developed originally during 
the Cold War retain some level of hardening. However, the 
aforementioned proliferation of modern electronics--especially in 
systems using commercial-off-the-shelf (COTS) technology poses a 
problem. Some militarized COTS have some hardening and/or reside in 
metal ship hulls, for example, that provide some degree of protection. 
Nevertheless, I do not believe we have a full understanding of the 
vulnerabilities of these systems to EMP attacks of various magnitudes. 
We need to develop this understanding and improve the resiliency of 
these systems. At the same time, we should plan for alternative 
concepts of operation for cases when the use of all or some of these 
systems is denied. In addition, we should work to keep our deterrence 
posture strong to include our missile defense capability.
    The Strategic Guidance includes countering weapons of mass 
destruction and maintaining a safe, secure, and effective nuclear 
deterrent among the primary missions of the U.S. Armed Forces. EMP 
would be just one of the effects resulting from a nuclear conflict 
between regional powers or a direct nuclear attack on the U.S. forces 
or the homeland. For this reason, I believe countering EMP threat can 
be considered as a component of these primary missions.

    Mr. Franks. 3) I would like to know from your perspective, do you 
feel the Nation is currently facing a threat from an EMP attack? Do you 
feel that the Nation is prepared to address this threat? And if not, 
how would you address mitigating this threat. Further, do you feel the 
threat is grave enough to be reflected in our National Strategic 
Guidance?
    Mr. Berteau. [The information was not available at the time of 
printing.]

                                  <all>

</pre></body></html>
